                                    SOCIAL SECURITY
MEMORANDUM

Date:   October 28, 2005                                              Refer To:

To:     Bill Gray
        Deputy Commissioner
         for Systems

From:   Inspector General

Subject: The Social Security Administration’s Office of Systems’ Training Program
        (A-13-05-15031)


        The attached final report presents the results of our evaluation. Our objective was to
        evaluate the Office of Systems’ process for providing training to current Office of
        Systems’ staff and new hires. We reviewed training opportunities, types of training
        provided, and cost of training for current Office of Systems’ staff and new hires to
        enhance skills/competencies needed to meet future workloads.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                        S
                                                        Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
        ADMINISTRATION’S
        OFFICE OF SYSTEMS’
        TRAINING PROGRAM

    October 2005   A-13-05-15031




  EVALUATION
    REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE
Our objective was to evaluate the Office of Systems’ (OS) process for providing training
to current OS staff and new hires. We reviewed training opportunities, types of training
provided, and the cost of training for current OS staff and new hires to enhance
skills/competencies needed to meet future workloads.

BACKGROUND
Technology is the foundation of the Agency’s current and future ability to provide quality
service in the face of a significant increase in workloads and the potential loss of
experienced staff. Therefore, the Agency must make effective use of new technologies
and ensure it has staff trained on the application of those technologies. Within OS’
Division of Process Engineering, Project, and Customer Services, the Systems Training
and Communications Branch manages and administers OS’ technical training program.

RESULTS OF REVIEW
Generally, OS had a comprehensive process for providing training to its employees.
However, there were opportunities for OS to enhance its processes to help ensure
continued success in providing employees essential training to improve the
skills/competencies they will need to meet future workloads.

RECOMMENDATIONS
To assist OS’ technical staff to gain the necessary skills/competencies to meet future
workloads and to improve the tracking of training, we recommend OS:

1. Remind managers of their responsibilities for conducting periodic discussions
   regarding employee training needs.

2. Work with Office of Personnel staff to remove duplicate postings of training
   information in its Human Resource Management Information System.

AGENCY COMMENTS
The Deputy Commissioner for Systems (DCS) agreed with our recommendations. The
text of DCS’ comments is included in Appendix E.




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)
                                                                       Table of Contents
                                                                                                              Page
INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

GENERALLY, OS HAD A COMPREHENSIVE PROCESS FOR
PROVIDING TRAINING TO ITS EMPLOYEES ......................................................2

     Training Needs .................................................................................................2

     Training Opportunities ......................................................................................3

     Types of Training ..............................................................................................4

     Training Costs ..................................................................................................5

OPPORTUNITIES EXISTED TO IMPROVE THE PROCESS FOR
PROVIDING AND TRACKING OS EMPLOYEES’ TRAINING ................................5

   Some Managers Did Not Use Skills Inventory Survey Results ...........................5

   Discussions Regarding Training Needs Were Not Always Occurring ................7

   Duplicate Postings of Training Information .........................................................8

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Identification of Training Process

APPENDIX C – Background, Scope and Methodology

APPENDIX D – Sampling Methodology

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)
                                                                            Introduction
OBJECTIVE
Our objective was to evaluate the Office of Systems’ (OS) process for providing training
to current OS staff and new hires. We reviewed training opportunities, types of training
provided, and the cost of training for current OS staff and new hires to enhance
skills/competencies needed to meet future workloads.

BACKGROUND
The Social Security Administration (SSA) is facing the unprecedented challenge of
trying to continually provide quality service during a time of increasing workloads and
the impending retirement wave of experienced staff. Aging of the baby boom
generation (that is, those individuals born between 1946 and 1964) will have a
significant impact on the Agency’s workloads. SSA estimates that, from 2003 through
2012, over 28,000 of its employees will retire, and another 10,000 will leave the Agency
for other reasons. This is approximately 59 percent of SSA’s current workforce.1

SSA identified 14 staff positions it considers critical to helping it “advance the economic
security of the nation’s people through compassionate and vigilant leadership in shaping
and managing America’s social security programs.” One of the “mission critical”
positions identified was the Information Technology (IT) Specialist. The IT Specialist
develops and supports the systems and services used in the Agency’s program and
business functions. Most IT Specialists are employed in OS.

OS is responsible for guiding and managing the development, acquisition, and use of
the IT resources that support the Agency’s program and business functions. Over the
next 10 years, OS estimates about 66 percent of its Fiscal Year (FY) 2003 IT workforce
will be eligible for retirement. In addition, OS estimates that approximately 100 IT
Specialists will retire each year over the same period.

The Systems Training and Communications Branch (STCB) manages and administers
OS’ technical training program. During our review, we assessed OS’ training-related
activities pertaining to its current staff and new hires.2




1
    Social Security Administration Strategic Plan 2003-2008, pps. 9 and 10, March 31, 2003.
2
 For this review, the term “new hires” is defined as employees hired in OS in Calendar Year 2003. Staff
hired before 2003, are referred to as current OS staff.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)                  1
                                                    Results of Review
Generally, OS had a comprehensive process for providing training to its employees.
This process identified the training needs of its employees; provided employees the
opportunities to receive training; offered various types of training; and provided
training budgets. However, there are opportunities for OS to enhance its processes
to help ensure continued success in providing employees essential training to
improve the skills/competencies they will need to meet future workloads.

GENERALLY, OS HAD A COMPREHENSIVE PROCESS FOR
PROVIDING TRAINING TO ITS EMPLOYEES
Executive Order 11348, section 301, provides “…the head of each Agency shall
plan, program, budget, operate and evaluate training programs in accordance with
chapter 41 of Title 5, United States Code….” Section 102 of the Executive Order
further states “…it is the policy of the Government of the United States to develop
its employees through the establishment and operation of progressive and efficient
training programs, thereby improving public service, increasing efficiency and
economy, building and retaining a force of skilled and efficient employees, and
installing and using the best modern practices and techniques in the conduct of the
Government’s business.”

                          OS had a process for identifying its staff’s training needs.
  Training Needs          Each month, STCB prepares a list of training courses
                          offered for the subsequent month and identifies the number
                          of available trainee openings for each listed course. STCB
e-mails the list to the Component Training Coordinator in each OS office.3 The
Component Training Coordinators employ various methods for disseminating the list
to management (see Appendix B).

Employees review the list and advise managers of their training requests.
Approved training requests are provided to STCB, which records and tracks each
employee’s training in its Systems Training Database. To help OS managers
review the types of training their employees have completed, STCB issues a
Systems Technical Training Monthly Status Report.

STCB has also developed a Review Set that managers can use to address gaps in
the skills/competencies of OS employees. A Review Set is a list of potential training
courses available to OS employees during the next 6 months and is distributed to
managers semiannually. Managers are expected to consider requirements for
upcoming projects and assignments, review their employees’ training histories and
3
 OS is comprised of seven Offices: the Offices of the Deputy Commissioner for Systems; Disability
and Supplemental Security Income Systems; Earnings, Enumerations and Administrative Systems;
Enterprise Support Architecture & Engineering; Retirement and Survivors Insurance Systems,
Systems Electronic Services; and Telecommunications and Systems Operations.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)            2
skill levels, determine what training will be needed, and record employees’ training
needs on the Review Set. Information recorded by managers on a Review Set
assists STCB to determine office-wide training needs of OS employees. For
example, using this information, STCB prepares a list of the Top 30 courses for use
during the next FY.

                        Employees were provided opportunities to receive training.
    Training            OS employees could choose to receive training through a
    Opportunities       variety of sources, including classroom instruction provided
                        by Agency employees or vendors, SSA’s GoLearn website,4
conferences, technical reference materials, and Interactive Video Training.

STCB created an Intranet site5 to enable OS employees to access course
schedules and profiles and register for training. The Desktop Application and
Technical Course Schedule, WebSphere Curriculum Course Schedule,
Management Leadership Curriculum Course Schedule, Project Management
Curriculum Course Schedule, and Technical Management Course Schedule provide
employees with the date, time(s) and location for a variety of courses.

Additionally, OS offers graduate-level training to selected computer professionals at
one of several local institutions. The program is offered to Grade Schedule 12 and
above OS employees and managers. OS management indicated that funds for this
program were cut the last 2 years because of budget considerations. However,
employees can still request graduate-level training through their managers, who
determine whether the training is related to their job and funds are available.

To determine whether OS employees requested training opportunities in Calendar
Year 2003, we requested training information from a sample of 163 OS employees.
We received 110 responses (about a 67 percent response rate), of which 49 were
from new hires and 61 were from current OS staff members. Of the 110 responses
55 employees requested training, 53 reported they did not request training, and
2 could not remember whether they requested training. Of the 53 respondents who
reported they did not request training, 20 were new hires and 33 were current OS
staff.

Staff provided various reasons for not requesting training. For example, several
new hires stated they were hired near the end of the year and did not have time to
select training, their training was “already mapped out” for them or they were
involved in a project that required their time. Further, nine current OS staff indicated
they did not request training because of workload constraints or their involvement in


4
  GoLearn became active on April 25, 2005. This new site, located at http://www.ssagolearn.com,
offers Agency employees access to approximately 2,000 on-line courses in such subject areas as IT,
leadership skills, and writing skills.
5
    See http://co.ba.ssa.gov/dcs/oesae/dpepcs/stcb/default.htm.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)         3
a high priority project. Three stated there were not many courses offered for their
position. The remaining staff gave a variety of reasons.

In addition, we requested training information from STCB and the Office of
Personnel (OP) for the 163 employees.6 Our review of the training information
revealed 58 of the current employees received 3,566 hours of training in 2003 or an
average 61 hours per employee. Whereas, 56 of the New Hires received
7,259 hours of training for an average of 130 hours of training per employee.

                              OS offered its employees a variety of training including:
                              technical, management, and leadership.
    Types of Training
                         Individual Development Plans (IDP) were used for some
new hires to identify planned training and developmental experiences to achieve
individual goals and needs. The IDP is designed to help employees achieve
individual goals consistent with organizational goals and needs.7 The employee
works with their assigned mentor and manager to prepare the IDP and select
training needed to reach the position at the top of the career ladder.8

For new hires, the recruitment staff and OS managers provide STCB a list of, and
timeframes for, necessary training. New hires are required to take the following
courses: Systems Orientation, Customer Service, and Computer Security
Awareness. Employees hired as Outstanding Scholars9 also receive the following
group training: Effective Listening and Speaking, Technical Writing for the Systems
Environment, Team Building with Myers Briggs and Working on Generation Mix.10
After completing this training, Outstanding Scholars can enroll in the following
entry-level programming classes: Introduction to Data Processing, Structured
Programming Techniques, Time Sharing Option/Interactive Systems Production
Facility or Basic, and Intermediate or Advanced COBOL.

The training needs of new hires not designated as Outstanding Scholars are based
on the experience they bring to the Government. A training regimen is not
automatically scheduled since it is assumed experienced new hires are trained in
the areas relevant to the position they were hired to fill. However, new hires can

6
 The training information received included the following: employee’s name, course title, course
number, course beginning and ending dates, course hours and cost.
7
  IDPs are generally prepared for new hires at the entry level of a career ladder position under the
following authorities: Outstanding Scholar Program, Veterans Authority, Schedule A Disability,
Administrative Careers with America and the Federal Career Intern Program.
8
    Of 49 new hires who responded to our data collection instrument, 22 had completed an IDP.
9
 The Outstanding Scholar Program is used to appoint those college graduates from accredited
schools who obtained a grade point average of 3.5 or higher on a 4.0 scale for all undergraduate
courses completed toward a baccalaureate degree.
10
     Employees can choose not to take these classes but must obtain management approval.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)               4
request entry-level programming classes, courses from a specific course curriculum
or other training offered on the monthly training listing or semiannual Review Set
list. In addition, if a new hire requires training that STCB does not offer, the
manager can note the need for training on the monthly list. STCB will decide
whether to develop new training based on the level of demand and their budget.

Current OS staff could receive training on-site or at local training facilities in a
variety of subject areas such as: CISCO, Data Warehousing and Computer
Security. Employees working with their managers could also choose to attend
training conferences and seminars.

                        For FY 2003, STCB requested and received over
  Training Costs        $2.3 million for OS training costs. STCB used about
                        $2.1 million for training, and the remaining funds were used
                        for printing, rentals, supplies and equipment. Of the
$2.1 million, approximately $101,000 was spent on 33 Outstanding Scholars hired
in FY 2003.

Each Outstanding Scholar is allotted $3,000 to obtain training related to specific job
duties. Although STCB allots the funds, the Outstanding Scholars’ managers
determine how the $3,000 is used. For example, funds can be used for the
employees’ continuing education.

OPPORTUNITIES EXISTED TO IMPROVE THE PROCESS FOR
PROVIDING AND TRACKING OS EMPLOYEES’ TRAINING
Although OS had a comprehensive process for providing training to its employees,
there were opportunities for OS to improve its process. Specifically, opportunities
existed to improve the process for providing and tracking OS employee training.

                         Some managers reported they were not using the results of
 Some Managers           the Skills Inventory surveys to ascertain current staffs’
 Did Not Use
                         training needs. Survey results provide a profile of IT
 Skills Inventory
                         Specialists’ existing technical skills and competencies. In
 Survey Results          addition, the survey collects data on competencies and
                         skills that will be needed in the next 3 years. OS analyzed
the survey results to determine the gap between current and future skill/competency
needs.

In February 2005, OS Executive Staff asked its Executive Officers to describe ways
they and their managers would use the Skills Inventory information for the
component’s workforce and/or workload planning. Below are some of their
responses.




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)   5
•   Structure training course needs based on an analysis of Skills Inventory data.
•   Send a list of skill sets to the Division Training Coordinator so management
    remains mindful of which courses the division should concentrate on.
•   Focus on information that is useful for
       -   mapping skills requirements to workloads,
       -   succession planning, and
       -   identifying available skills to share resources among components.

We did not independently determine whether all Executive Officers and their
managers were using the Skills Inventory information as stated. However, we
interviewed several OS managers in March 2005 who stated they did not use the
Skills Inventory results to determine employee training needs. The managers
stated the survey results were viewed as a tool used by the Deputy Commissioner
for Systems’ (DCS) Executives to determine needed skills/competencies that could
be acquired through new hiring. In addition, the results could be used to determine
whether to place staff in positions that require a specific skill set (for example,
making a computer programmer with Disability Insurance program experience a
computer programmer for the Supplemental Security Income program). One
manager indicated he determined his employees’ training needs based on past job
experience, not the results of the Skills Inventory survey.

We believe using the Skills Inventory survey results could assist OS managers in
advising, selecting, and approving employee training courses. Further, managers
would obtain a better understanding of the skill/competency gaps that exist in the
current workforce and the skills/competencies needed to meet future workload
demands.

On May 27, 2005, OS management added language to the transmittal
memorandum for the semiannual Review Set reminding managers of the top five
skills/competency gaps. The memorandum also noted that additional detail on skills
gaps was available on the Gap and Retirement Loss Reports at
http://s306a2e/itwf04/MISReports/mainmenu.cfm.




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)   6
    Discussions Regarding            SSA’s Administrative Instruction Manual Systems
    Training Needs Were              states the “Responsibility for effective training and
    Not Always Occurring             career development is shared by every SSA
                                     manager and supervisor. In their respective roles,
                                     they share the goal of building and retaining a
competent workforce.”11          Further, SSA managers’ and supervisors’ responsibilities
include

•     counseling employees on needed training,
•     encouraging employees’ self-development efforts, and
•     assisting in the preparation of Individual Development Plans.12

Additionally, the 2000 SSA/American Federation of Government Employees
National Agreement13 states that “The Administration will remind employees, at
least annually, of the availability of Government-sponsored training programs, the
general scope of training, the criteria for approval of training, and the nomination
procedures.” Further, the Agreement provides that “Employees or managers may
initiate discussion of individual training needs.”14

During our review, we asked 163 OS employees how often their training needs
were discussed in Calendar Year 2003. Of the 110 respondents, 72 indicated they
had a discussion at least once. However, 37 employees (33 percent) reported they
did not have a discussion, and 1 could not remember. However, a review of training
information for these employees indicated that 17 of the 37 respondents had
participated in training in Calendar Year 2003.

We could not determine why employees were not discussing their training needs.
We believe, without such a discussion, employees might not be informed of training
needed for on-going development or aware of training needed for proficiency using
future technology.




11
  Administrative Instruction Manual Systems, Training Manual, Chapter 01 Training Policy,
Instruction 1, section 01.01.05.
12
     Id. at section 01.01.05E.
13
  2000 SSA/American Federation of Government Employees National Agreement, Article 16,
section 5 A.–Training Programs.
14
     Id. at section 5D.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)     7
                           We identified duplicate postings of OS employee training
   Duplicate Postings      information in the OP’s Human Resource Management
   of Training             Information System (HRMIS).15 Completed Forms SSA
   Information             352-U10, Training and Nomination Authorization, are
                           forwarded to the Deputy Commissioner for Human
                           Resources’ OP. Once received, OP staff assigns the
training courses numeric codes and inputs this and other information from the
Forms SSA 352-U10 into HRMIS. DCS management reported this manual process
can take up to 45 days for the information to be entered into HRMIS. OS
employees can also request their training information be entered into HRMIS
through the OP Intranet site.16 DCS management stated this process should take
no longer than 14 days, as referenced on the OP website. Since there are two
methods to record training information in HRMIS, duplicate postings of training
information could and did occur.

During our review, we obtained from OP’s HRMIS database lists of 664 training
courses completed in Calendar Year 2003 by the 163 OS employees included in the
sample. We reviewed the list to determine whether any discrepancies existed and
determined that 78 of the 664 (12 percent) courses had duplicate postings in
HRMIS.

The management information included in HRMIS is used to produce various
reports.17 Further, the HRMIS information can assist managers in their supervisory
duties. Therefore, we believe the correction of the duplicate postings in HRMIS
would help validate the reliability of information contained in management reports
and used by managers in their supervisory duties.




15
   HRMIS serves as a database for staffing reports, promotion plan operations, employee training
data, personnel research and program evaluation, Equal Opportunity statistics, and management
information. Information in HRMIS files is available on both present and former employees.
16
     See https://ope.ba.ssa.gov/poas/EEDATA.
17
   Examples of HRMIS reports include staffing reports, promotion plan operations, personnel
research and program evaluations, equal opportunity statistics, and management and training
information.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)           8
                                                Conclusions and
                                               Recommendations
Technology is the foundation of the Agency’s current and future ability to provide
quality service in the face of a significant increase in workloads and the potential
loss of experienced staff. Therefore, the Agency must make effective use of new
technologies and ensure it has staff trained in the application of those technologies.
To ensure OS’ employees, including those in its mission-critical IT Specialist
positions, have necessary skills/competencies and to ensure improved tracking of
training, we recommend OS:

1. Remind managers of their responsibilities for conducting periodic discussions
   regarding employee training needs.

2. Work with OP staff to remove duplicate postings of training information in its
   HRMIS.

AGENCY COMMENTS
DCS agreed with our recommendations. Also, DCS provided a technical comment
related to individuals who took training in Calendar Year 2003 but reported they did
not have a training discussion. The text of DCS’ comments is included in
Appendix E.

OIG RESPONSE
We agree with DCS’ comment and have made the appropriate change.




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)   9
                                            Appendices




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)
                                                                           Appendix A

Acronyms
 DCS               Deputy Commissioner for Systems
 FY                Fiscal Year
 GAO               Government Accountability Office
 HRMIS             Human Resource Management Information System
 IDP               Individual Development Plan
 IT                Information Technology
 OP                Office of Personnel
 OS                Office of Systems
 SSA               Social Security Administration
 STCB              Systems Training and Communications Branch




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)
                                                                                       Appendix B

Identification of Training Process




                  STCB prepares a list of               Listing sent to OS
                  available training for the           component mailboxes
                      following month


                                                   Component Training Coordinator
                                                              (CTC)
                                                         obtains the listing




                                                            Does CTC have a
                                                Division Training Coordinator (DTC)?




                                                      Yes                 No



                                        DTC transmits listing            CTC transmits listing
                                          to Management                    to Management




                                                    Management shares listing with
                                               Employees and Determine Who is Nominated




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)         B-1
                                    Management Returns their Nominations
                                        for Training to the CTC/DTC




                                         Does the CTC have a DTC?




                                      Yes                        No




                      CTC Receives Compiled Course              CTC Compiles Course
                        Information & Nominations            Information & Nominations &
                                 from DTC                          Sends to STCB




                                  CTC
                           Forwards it to STCB




                               STCB records & tracks the nominations for training




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)   B-2
                                                                                   Appendix C

Background, Scope and Methodology
The Office of Systems’ Assessment of its Employees’ Knowledge, Skills and
Competencies

In an August 2001 report,1 the Government Accountability Office2 recommended the
Social Security Administration’s Office of Systems (OS) (1) complete an assessment of
its current and future information technology (IT) knowledge and skill needs; (2) develop
and maintain an inventory of its current IT staff’s knowledge and skills; (3) determine
whether a knowledge and skills gap exists between current and future IT staff
requirements and current staffing; (4) implement workforce strategies that support the
results of this gap analysis; (5) and analyze and document the effectiveness of its
strategies for recruiting, training, and retaining IT personnel and use these results to
continuously improve its IT human capital strategies.

The Agency employed a research and analysis company to respond to the Government
Accountability Office’s recommendations.3 The company reported:

1. OS should increase its use of skill and competency databases.

2. Multiple surveys are the key to success.

3. IT departments typically initiate a Skills Inventory/gap analysis in any organization.

To address the companies’ findings, in Fiscal Year (FY) 2002, OS developed an
in-house, web-based Skills Inventory survey. The survey was used to determine the
status of employees’ skills before OS’ reorganization.4 Further, in FY 2003, OS
conducted a follow-up Skills Inventory survey. The objectives of the follow-up survey
were to identify skills/competencies of technical employees after the reorganization,
collect information on future skill needs; perform a gap analysis between current and
future skill requirements; enable OS to track skills lost to potential retirements; and use

1
 GAO, INFORMATION TECHNOLOGY MANAGEMENT: Social Security Administration Practices Can
Be Improved, (GAO-01-961), p. 77, August 2001.
2
    The Government Accountability Office was formerly the General Accounting Office.
3
  Office of Systems, IT Workforce Strategic Plan 2003, DCS Implements Skills Inventory Survey Results
to Enhance Human Capital Planning, p.2, June 2003.

4
  OS was restructured to organize and combine software development resources along SSA program
lines. Before the reorganization, software subcomponents were aligned by function with software
developers working in a different office than the staff who developed the functional requirements and who
validated software after it was developed.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)             C-1
results to continue to improve the Deputy Commissioner for System’s human capital
strategy.

After the completion of the 2003 Skills Inventory survey, OS’ Systems Training and
Communications Branch (STCB)5 conducted two assessments of employees training
needs.6 7 The assessments were used to identify critical training needed by OS’
employees. In addition, STCB analyzed the 2003 Gap Analysis Report to identify the
largest employee competency gaps in future years. The largest competency gaps were
identified in the following areas: Systems Life Cycle, Technical Documentation,
Requirement Analysis, Project Management and Business Process Analysis.

STCB decided that, rather than attempt to identify all gaps that could be addressed by
training and prioritize that list, it would identify large gap areas and determine which
could best be addressed by a training strategy. A general training strategy was then
created as a solution to address any skills/competency gap areas. The strategy
consists of the following five steps: (1) analyze current skills data and competency gap
data in detail, (2) define skills needed for each skill level, (3) identify courses that
develop this competency, (4) pilot new courses and (5) develop and publish a
curriculum. STCB reported it had completed the first four steps of the strategy for the
Technical Documentation skill/competency gap. OS also reported that this strategy was
being used in the revision of their Analyst curriculum.

In August 2004, the FY 2004 Skill Inventory survey was completed. STCB compared
the results of the FY 2004 survey to the results of the FY 2003 survey. The comparison
revealed that the top 5 skill/competency gaps for 2003 appear in the top 10 gaps for
2004. After we completed our fieldwork, OS issued its Office of Systems 2005 Strategy
for Addressing Large Skill Gaps Areas Using Training to address these gaps.8




5
    STCB manages and administers OS’ technical training program.

6
  To conduct a training needs analysis, OS managers are asked to identify their employees’ total needs
for Review Set courses as well as for courses not listed on the Review Set. A Review Set is a
compilation of courses provided by the STCB that are available to employees for the 6 months after the
listing is distributed.
7
    Report on the Analysis of Skills Inventory Results and Component Training Needs, July 2004.
8
    Office of Systems 2005 Strategy for Addressing Large Skill Gap Areas using Training, May 2005.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)             C-2
Scope and Methodology

To accomplish our objectives, we:

•    Reviewed various Social Security Administration (SSA) documents related to SSA’s
     information technology human resources management.9

•    Reviewed relevant reports from other Federal agencies.10

•    Reviewed applicable laws, regulations, Office of Management and Budget guidance,
     and the Agency’s Union Agreement and policies and procedures.11

•    Obtained a data extract of 9,779 employee names from the Federal Personal Payroll
     System representing current OS staff and new hires in the OS for Calendar Years
     2001 through 2003. We segregated the data in the extract by years and selected
     2003 as they were the most recent data requested and would also contain
     information on those employees hired in 2001 and 2002. This resulted in 3,087
     employees in OS for 2003. (See Appendix D for Sampling Methodology.)

•    Interviewed Agency management and staff.

•    Obtained from STCB a list of completed training in 2003 for selected employees. In
     addition, a list of training courses completed in 2003 for these same employees was
     obtained from the Agency’s Human Resources Management Information System.
     The lists were compared to determine whether any discrepancies existed.




9
  Social Security Administration, Office of Systems, IT Workforce Strategic Plan, DCS Implements Skills
Inventory Survey Results to Enhance Human Capital Planning, June 2003; The Social Security
Administration’s Retirement Wave 2004 through 2013, Office of Human Resources Human Capital
Planning Staff, March 2004; Social Security Information Resources Management Strategic Plan Fiscal
Year 2004, April 2004; Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for
Fiscal Year 2003, May 2003; and Social Security Administration Performance and Accountability Report
Fiscal Year 2003, November 2003.
10
   We reviewed numerous Government Accountability Office reports on information technology and
training.
11
   We reviewed Public Law 107-347; E-Government Act of 2002, December 2002; Executive Order (EO)
11348 Providing for the Further Training of Government Employees, April 1967; EO 13011 Federal
Information Technology, July 1996; and EO 13111, Using Technology to Improve Training Opportunities
for Federal Government Employees, January 1999. We also reviewed the following: Chapter 5 part 410
of the Code of Federal Regulations, Administrative Personnel, January 2004; Office of Management and
Budget (OMB) Circular 123, Management Accountability and Control, June 1995; and OMB Circular 130;
Management of Federal Information Resources; February 1996; Article 16 of the 2000 SSA/AFGE
National Agreement and Administrative Instruction Manual Systems procedures Chapter 01 Training
Policy, Instruction Number 1, Section 01.01.05, September 1996.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)             C-3
We did not determine the reliability of the computer-processed data nor did we test for
completeness or validity. However, we were able to use the data for their intended
purpose. The data obtained were used to report on SSA’s process for providing training
to current OS staff and new hires.

We performed our evaluation from July 2004 through April 2005 in Baltimore, Maryland.
The entity reviewed was the Office of the Deputy Commissioner for Systems. We
performed our evaluation in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)   C-4
                                                                              Appendix D

Sampling Methodology
To identify the population of employees in the Office of Systems (OS) during Calendar
Years 2001 through 2003, we obtained a data extract from the Federal Personnel
Payroll System. The total population of employee names for the period was 9,779.1
We then segregated the data in the extract by years and used the data for 2003 as they
were the most recent data requested and would also contain information on those
employees hired in 2001 and 2002. This resulted in 3,087 employees in OS for 2003.

From this population, we excluded employees who had either of the following
characteristics: separated from the Social Security Administration during 2003 or
would not be required/subject to specialized technical training on the application of new
technologies.

This reduced the population to 2,789 employees. From this population, we separated
the 69 new hires for 2003 leaving 2,720 current OS staff. We then randomly selected
50 new hires out of the 69 new hires and 100 current OS staff from the
2,720 employees. The employees selected were requested to provide information
pertaining to their training related experiences.

While conducting this evaluation, six new hires and eight current staff employees left
their positions with OS. We then decided to select an additional 8 replacement
employees for the current OS staff and use the remaining 19 new hires from our original
population of 69 new hires. This resulted in a total of 163 employees requested to
provide training information.

Of the 163 employees contacted, we received information from 110 individuals which
represents a 67 percent response rate. The following table presents a breakdown of
the responses we received. Seventy-eight percent of new hires (49 of 63) and
61 percent of current OS staff (61 of 100) responded.

                                     Summary of
                        Responses to Data Collection Instruments

      Total         Total   Percent of               Number of            Number of New
    Employees     Responses Employees              Current OS Staff         Hires Who
    Contacted                  Who                      Who                Responded
                            Responded                Responded
       163           110        67                       61                       49



1
 An employees’ name may have appeared more than once on the data extract if they were working in
Systems during 2003 and any of the preceding years.


The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)
                                                                            Appendix E

Agency Comments

   October 14, 2005

   From the Office of the Deputy Commissioner for Systems

   Thank you for opportunity to review your draft report.

   We're pleased the report recognizes the many positive aspects of our training program
   and we agree with your recommendations.

   We began working with the Office of Personnel to remove duplicate training postings
   on September 7, 2005. And, we'll be sure to continue reminding managers to discuss
   training needs with their employees. On that note, we'd like to point out that in our
   busy schedules it's not always easy to remember what activity we've engaged in the
   past. Your report notes that 37 of 110 respondents reported they did not have a
   discussion about training with their managers. Apparently some of the 37 did, as 17 of
   them participated in training during your review scope. Discussion would have had to
   take place for training to be considered and approved. We recognize that this is a
   shortcoming of self-reported information, but would appreciate an adjustment in the
   numbers in your final report.

   Staff may direct questions to Jackie Newton at 69187, or Margaret Rawls on
   extension 7-1552.

   William E. Gray




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)
                                                                            Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   Brian Karpe, Audit Manager, (410) 966-1029

Acknowledgments
In addition to those named above:

   Evan Buckingham, Senior Program Analyst

   Kimberly Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-13-05-15031.




The Social Security Administration’s Office of Systems’ Training Program (A-13-05-15031)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
